La
I

C@OCKLE

E-Mail Address:
L cs al Brie fs contact@cocklelegalbriefs.com

2311 Douglas Street

Omaha, Nebraska 68102-1214
Est. 1923

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No.

LORI BRAUN, AS ADMINISTRATRIX OF THE ESTATE
OF CASSANDRA BRAUN, DECEASED, INDIVIDUALLY
AND ON BEHALF OF ALL WRONGFUL DEATH
BENEFICIARIES OF CASSANDRA BRAUN,
Petitioner,

Vv.

BRIAN RAY BURKE, TROOPER, INDIVIDUALLY
AS AN OFFICER OF THE ARKANSAS STATE POLICE;
BILL BRYANT, COLONEL, INDIVIDUALLY AS
THE CHIEF EXECUTIVE OFFICER OF
THE ARKANSAS STATE POLICE,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR A WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 8400 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 1st day of July, 2021.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

fe tmisae, | NOTARY-State of Nebraska A / Zz. Chk
RENEE J. GOSS .

fe tmisae, | Exp. September 5, 2023

 

Notary Public Affiant 41097
